OFFICE OF INSPECTOR GENERAL


AUDIT OF INTERNAL
CONTROLS OVER THE
SEPARATE MAINTENANCE
ALLOWANCE AT SELECTED
MISSIONS IN THE MIDDLE
EAST BUREAU
AUDIT REPORT NO. 6-263-10-003-P
January 14, 2010



CAIRO, EGYPT
Office of Inspector General


January 14, 2010

MEMORANDUM

TO:            USAID/Egypt Director, Hilda M. Arellano
               USAID/Jordan Director, Jay L. Knott
               USAID/West Bank and Gaza Director, Howard J. Sumka

FROM:          Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:       Audit of Internal Controls over the Separate Maintenance Allowance at
               Selected Missions in the Middle East Bureau
               (Audit Report No. 6-263-10-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we carefully considered your comments on the draft report, and we have included the
Missions comments in their entirety in appendix II.

The report includes 13 recommendations for your action. Based on management
comments, the audit considers that management decisions have been reached on 12 of
the 13 recommendations and final action has been taken on recommendations nos. 2, 3,
5, 6, 10, 11, 12, and 13. Determination of final action will be made by the Audit,
Performance and Compliance Division (M/CFO/APC) upon completion of the planned
corrective actions for recommendations nos. 1, 4, 7, 8, and 9.

Thank you for the cooperation and courtesy extended to the audit team during this audit.
CONTENTS
Summary of Results..........................................................................................................1

Background.......................................................................................................................3

Audit Objective..................................................................................................................4

Audit Findings....................................................................................................................5
          Missions Should Improve Management
          Oversight and Data Verification……………..…………………………………………5

          Missions Should Verify Continued
          Separate Maintenance Allowance Eligibility………………………………………….7

          Mission Should Obtain Appropriate
          USAID Approval..……………………………………….………….………………….10

          Missions Should Improve Controls
          Over Documentation….…………………….………………………………………....13

          Missions Should Use Updated
          Documents………………………….……………………………………………….....15

Evaluation of Management Comments............................................................................18

Appendix I – Scope and Methodology.............................................................................21

Appendix II – Management Comments.......................................................................... 23

Appendix III – Summary of Payments...………………..……………………………….......33

Appendix IV - Questioned Costs.....................................................................................34

Appendix V – Federal Guidance…………….. ................................................................35
SUMMARY OF RESULTS
The separate maintenance allowance (SMA) is a nontaxable cost-of-living allowance
that USAID may provide to “assist an employee to meet the additional expenses of
maintaining members of family elsewhere than at the employee’s foreign post of
assignment.” 1 USAID has three types of SMA benefits for its employees: involuntary,
voluntary, and transitional. (Transitional benefits are not addressed in this report.) The
Agency may grant involuntary SMA benefits to an employee when there are dangerous,
notably unhealthful, or excessively adverse living conditions at post, or for the
convenience of the Government. USAID may grant voluntary SMA benefits to an
employee based on personal special needs or hardship involving eligible family
members including spouses, domestic partners, and dependent children (page 3).

In accordance with USAID Automated Directives System 477, Allowances and
Differentials, the USAID/Washington Office of Human Resources appears to be the only
approving authority for the SMA benefit (page 10). The missions’ offices of the
Executive Officer and Financial Management are responsible for assisting employees on
matters regarding the SMA benefit. Specifically, within the missions’ executive offices,
the Office of Human Resources may receive, review, and forward employees’ grant
applications to USAID/Washington for approval. Routinely, human resources staff
members forward USAID/Washington’s approved SMA cables and applications to a
mission’s Office of Financial Management to obligate funds and process payments
(page 3).

The audit focused on assessing control activities over SMA for selected USAID missions
in the Middle East Bureau 2 —USAID/Egypt and its client missions (USAID/Lebanon,
USAID/Morocco, and USAID/Yemen), USAID/Jordan, and USAID/West Bank and Gaza
(page 3). The audit reviewed 208 payments valued at $160,904 in voluntary and
involuntary SMA benefits that missions paid to 19 employees from May 1, 2005, to June
30, 2009, as shown in appendix III (page 33). As shown in appendix IV (page 34), the
audit identified questioned costs valued at $7,370 in unallowable separate maintenance
allowance payments that missions provided to four USAID employees.               These
unallowable payments resulted from inadequate management oversight over verification
of data, continued eligibility, and approvals (pages 5–17).

Specifically, the audit found that USAID/Egypt, USAID/Jordan, and USAID/West Bank
and Gaza should strengthen their internal controls regarding (1) management oversight
and data verification, (2) verification of continued SMA eligibility, (3) appropriate USAID
approvals, (4) documentation, and (5) the use of updated documents (pages 5–17).

The audit team provided a summary of other findings discussed in this report to the
Office of Inspector General/Washington staff of the Performance Audit Division. The
audit staff briefed USAID officials about weaknesses identified in USAID Automated
Directives System 477, Allowances and Differentials. Although the Regional Inspector
General/Cairo’s summary identified improvements that could help strengthen

1
  As stated in the Department of State Standardized Regulations, Chapter 260, Section 261.1 a,
as of August 30, 2009.
2
  The audit included all missions within the Middle East Bureau except USAID/Iraq.


                                                                                            1
management controls regarding specific weaknesses in USAID documentation
requirements, employee recertification, suspension and termination of SMA benefits,
and the need to synthesize voluminous guidance, the Performance Audit Division will
address these issues in a separate report to USAID/Washington’s Office of Human
Resources Office of Foreign Services’ Personnel Division (page 4).

Management comments are included in their entirety in appendix II.




                                                                                 2
BACKGROUND
The separate maintenance allowance (SMA) is a nontaxable cost-of-living allowance
that USAID may grant to “assist an employee to meet the additional expenses of
maintaining members of family elsewhere than at the employee’s foreign post of
assignment.” USAID has three types of SMA benefits for its employees: involuntary,
voluntary, and transitional. (Transitional benefits are not addressed in this report.) The
Agency may grant involuntary SMA benefits to an employee when there are dangerous,
notably unhealthful, or excessively adverse living conditions at post, or for the
convenience of the Government. For voluntary SMA (VSMA), USAID may grant benefits
to an employee based on personal special needs or hardship involving eligible family
members, including spouses, domestic partners, and dependent children.

As of May 2008, the annual rates for VSMA benefits were $8,400 for one adult and
$10,700 for an adult and one additional family member. These rates increased in May
2008 to $11,300 for one adult and $15,300 for an adult and one additional family
member for family separations at the convenience of the Government.

Much of the U.S. Government guidance about the SMA benefit is documented in law,
regulations, and Secretary of State (SECSTATE) cables, as illustrated in appendix V.
Although USAID has published guidance on the SMA benefit in Automated Directives
System (ADS) 477, Allowances and Differentials, March 2002, and updated it in
September 2002, the guidance does not contain much specificity about USAID
procedures. USAID’s guidance is more of a reference tool that refers employees to
other substantive and voluminous guidance contained in the Department of State
Standardized Regulations 260, Separate Maintenance Allowance, and the U.S.
Department of State Foreign Affairs Manual (FAM) Volume 3, Chapter 3200,
Allowances.

Selected USAID missions within the Middle East Bureau—USAID/Egypt and its client
missions (USAID/Lebanon, USAID/Morocco, and USAID/Yemen), USAID/Jordan, and
USAID/West Bank and Gaza—provided 208 payments valued at $160,904 in voluntary
and involuntary 3 SMA benefits to 19 4 employees from May 1, 2005, to June 30, 2009.
The audit identified questioned costs valued at $7,370 in unallowable SMA payments to
four USAID employees. The unallowable SMA payments resulted from inadequate
management oversight over the verification of data, continued eligibility, and approvals.

The missions’ offices of the Executive Officer and Financial Management are
responsible for assisting employees on matters regarding the separate maintenance
allowance benefit. Specifically, within the missions’ executive offices, the Office of
Human Resources may receive, review, and forward employees’ grant applications to
USAID/Washington for approval. Routinely, human resources staff members forward
supporting document and payment requests to a mission’s Office of Financial

3
  Twenty of the 21 employees received voluntary SMA, and the remaining employee received
involuntary SMA while posted at USAID/Yemen.
4
  Twenty-one employees applied for SMA benefits. Of the 21 applicants, the missions made
SMA payments to 19 employees. The two remaining employees did not request benefit
payments during the audit period.


                                                                                        3
Management for processing and payment.

Although missions’ Executive Office and Financial Management staff were
knowledgeable about much of the SMA payments guidance, the missions have not
established sufficient internal controls to prevent improper use of the SMA. Specifically,
the audit found that missions should strengthen their internal controls over
(1) management oversight and data verification, (2) verification of continued SMA
eligibility, (3) appropriate USAID approval, (4) documentation, and (5) the use of updated
documents.

The audit team provided a summary of other findings discussed in this report to the staff
of the Performance Audit Division at the Office of Inspector General/Washington. The
audit staff briefed USAID officials about the lack of guidance in ADS 477, Allowances
and Differentials, regarding mission requirements to provide informational copies of
employee SMA benefits to appropriate gaining missions and supporting documentation
for employees requesting and receiving SMA benefits. Although the Regional Inspector
General/Cairo’s (RIG/Cairo) summary identified improvements that could help
strengthen management controls regarding specific weaknesses in USAID
documentation requirements, employee recertification, notification procedures for
suspension and termination of the SMA benefit, and the need to synthesize voluminous
guidance regarding SMA data, the Performance Audit Division will address these issues
in a separate report to USAID’s Office of Human Resources Foreign Service Personnel
Division.

AUDIT OBJECTIVE
This audit was added to RIG/Cairo’s 2009 audit plan at the request of the Inspector
General after a former USAID contracting officer pled guilty to making a false claim from
USAID seeking more than $14,000 for SMA benefits between December 2006 and July
2008. In response, USAID’s Inspector General requested an Agencywide audit to
assess USAID’s internal controls over SMA benefits. RIG/Cairo performed this audit to
determine whether selected missions located in the Middle East Bureau have
established internal controls over SMA to prevent improper use of the benefit. The audit
was designed to answer the following question:

      Have selected missions in the Middle East Bureau adopted appropriate internal
       controls to prevent improper use of the separate maintenance allowance?

The audit’s scope and methodology are described in appendix I.




                                                                                        4
AUDIT FINDINGS
Selected missions within the Middle East Bureau provided thousands of dollars in
separate maintenance allowance (SMA) benefits to employees working overseas at
USAID/Egypt and its client missions, USAID/Jordan, and USAID/West Bank and Gaza.
Although the staff at these missions demonstrated knowledge of the numerous
regulations that govern SMA benefit, the audit found that internal controls were
inadequate to prevent its improper use. Consequently, the missions covered by the
audit should strengthen their internal controls over management oversight and data
verification, verification of continued SMA eligibility, approvals, documentation, and the
use of updated documents.

From May 2005 to June 2009, the missions made 208 SMA payments to 19 employees
valued at $160,904. Of the total SMA payments at the six missions reviewed in the
Middle East Bureau, the audit questioned $7,370 or 5 percent of these benefit payments
as unallowable because mission officials did not verify both data and continued eligibility,
and obtain appropriate USAID approval.

In general, most of the missions’ staff were familiar with the regulations and guidance.
However, some mission officials encountered difficulties implementing appropriate
procedures to prevent improper use of the benefit because of the lack of specific USAID
guidance and ambiguities in the Agency’s policy on the SMA benefit.

Consequently, USAID/Egypt, USAID/Jordan, and USAID/West Bank and Gaza should
strengthen their internal controls regarding (1) management oversight and data
verification, (2) verification of continued SMA eligibility, (3) appropriate USAID approval,
(4) documentation, and (5) the use of updated documents.

Missions Should Improve
Management Oversight and
Data Verification

 Summary: Automated Directives System (ADS) 596.3.1, Establishing Management
 Controls, states that management control activities include top-level and functional-
 level management reviews as well as the accurate recording and proper execution of
 transactions and events. In addition, Federal Government regulations govern SMA
 benefits provided to employees and define other disallowed travel benefits while SMA
 is payable. In 2005, USAID/Jordan’s Office of Human Resources inappropriately
 approved travel entitlements for an employee’s spouse’s home leave and transfer.
 This occurred because management reviews and verification of SMA documentation
 were not adequate to detect that the travel expenses were unallowable for a family
 member for whom SMA is payable. Consequently, USAID cannot be assured that
 unallowable costs are identified and recovered in a timely manner.

Automated Directives System (ADS) 596.3.1, Establishing Management Controls, states
that management control activities include top-level and functional-level management
reviews as well as the accurate recording and proper execution of transactions and



                                                                                          5
events. In addition, the Department of State establishes specific regulations for the
separate maintenance allowance in its Standardized Regulations 260. Specifically, the
Department of State Standardized Regulations (DSSR) 264.2.b, Voluntary Separate
Maintenance Allowance (VSMA) – Based on Special Needs or Hardship of the
Employee, requires an employee to elect to have an eligible family member either
included on the employee’s travel orders or not placed on the travel orders and instead
placed on voluntary SMA (VSMA) at the time of assignment. After this initial election,
the employee may request that VSMA either commence or terminate (depending on the
initial election) only once for each family member during a tour. This change cannot
occur during the employee’s first or last 90 days at post.

Moreover, the Foreign Affairs Manual (3 FAM 3232.3-3.b) stipulates that certain travel
benefits are not granted for eligible family member(s) for whom SMA is payable.
Accordingly, family members would not be allowed to receive such benefits as home
leave or educational and visitation travel.

Although numerous regulations describe the requirements and standards that USAID
missions should follow, the audit found that USAID/Egypt and USAID/Jordan need to
improve their management oversight and verification of data.

USAID/Jordan – In 2005, USAID/Jordan’s Office of Human Resources did not provide
adequate management oversight in verifying an employee’s approved travel entitlements
for a home leave/transfer and did not review SMA documentation that included the
employee’s family member’s arrival and departure dates on the grant application.

The employee and his spouse arrived at USAID/Jordan on August 8, 2002. On
December 7, 2002, the employee elected to place the spouse on SMA. From December
7, 2002, to June 30, 2005, the employee received SMA benefits valued at $21,449. At
the end of the employee’s tour at USAID/Jordan, USAID/Washington’s Office of Human
Resources Personnel Operations Division issued a transfer cable for the employee on
June 28, 2005. However, USAID/Jordan issued a travel authorization to cover travel
expenses for both employee and spouse from the mission to Washington, DC, with a
reassignment to USAID/Egypt. On July 5, 2005, USAID/Jordan’s executive officer
approved travel expenses that included an airline ticket and per diem for the employee’s
spouse to travel from Jordan to the United States with continuation travel to Cairo,
Egypt. On July 6, 2005, the employee and spouse left post from USAID/Jordan on travel
authorization issued by USAID/Jordan and funded by both USAID/Jordan and
USAID/Egypt, the follow-on mission.

According to the incumbent USAID/Jordan executive officer in September 2009, the
mission normally sends a copy of an employee’s unofficial personnel folder to a gaining
mission. However, USAID/Egypt’s human resources officer stated that the office did not
receive any SMA-related records from USAID/Jordan in 2005. As a result, USAID/Egypt
was not able to identify USAID/Jordan’s improper authorization for the spouse’s travel.
Consequently, USAID/Egypt processed the travel voucher in accordance with the travel
authorization, and inappropriately paid previously authorized travel expenses of $3,706
for the spouse’s travel from Jordan to Washington, DC, and then to USAID/Egypt. On
October 12, 2009, USAID/Egypt agreed to issue a bill for collection for excess travel
expenses paid on behalf of one employee who was identified and questioned by the audit.

Since SMA places additional demands on USAID’s resources, missions are obliged to


                                                                                      6
establish management controls to ensure that any employee requests for the benefit are
properly processed and authorized before benefits are paid.           Without effective
management oversight to ensure the accuracy of travel authorizations and financial
entitlements, USAID cannot ensure that unallowable costs are identified and recovered
in a timely manner. Accordingly, this audit makes the following recommendation:

   Recommendation No. 1: We recommend that USAID/Egypt coordinate with
   USAID/Jordan to determine the allowability of $3,706 paid to cover travel
   expenses for the employee’s spouse and issue a bill for collection for amounts
   deemed unallowable.

Missions Should Verify
Continued Separate Maintenance
Allowance Eligibility

 Summary: Federal Government regulations require an employee to suspend or
 terminate separate maintenance allowance based on specific events and to
 document such suspension or termination on the grant application. Moreover, ADS
 596.3.2, Assessing the Adequacy of Internal Controls, requires managers to assess
 internal controls and improve effectiveness of those associated with operations.
 USAID/Egypt and USAID/West Bank and Gaza paid excess SMA benefits because
 the two missions did not establish management controls to verify continued eligibility
 status and did not use the appropriate application form to document termination of
 SMA benefits. Although our audit work did not identify any regulations requiring
 missions to verify the status of SMA eligibility on a continual basis, as a management
 control, USAID officials should continually perform due diligence to verify continued
 eligibility to safeguard the Agency’s resources.

Department of State Standardized Regulations, General Provisions, Section 077.3,
Granting Allowances and Difficult to Staff Incentive Differential on SF-1190 (Foreign
Allowances Application, Grant, and Report), Subsection 077.31, General, states that
each agency shall grant, revise, and terminate SMA benefits on the SF-1190. The
guidance requires employees to suspend or terminate grant based on specific events.
In addition, DSSR Chapter 260, Section 266, Suspension/Termination of Grant, also
requires that the grant be suspended or terminated based on specific events that
include:

      A visit from a family member to post that is in excess of 30 consecutive days.
      An employee’s transfer from post.
      When an employee is separated from the agency while assigned at post where
       benefits have been granted.

Continued eligibility can be negatively affected when an employee becomes legally
separated from a spouse or when a dependent child reaches a specific age. Moreover,
ADS 596.3.2, Assessing the Adequacy of Internal Controls, requires managers to
assess the adequacy of internal controls and improve the effectiveness of those
associated with operations.




                                                                                          7
USAID/Egypt – USAID/Egypt did not require staff to use the grant application to
terminate or suspend SMA grants. The mission processed 12 SMA grants and made
payments totaling $76,303 to 9 employees from May 2005 to June 2009. Of the 12 SMA
grant applications, one employee had a change in condition, but USAID/Egypt’s Office of
Financial Management did not terminate the benefit payments when this change in
condition occurred.

The employee arrived at post in July 2004, while his eligible family members receiving
the SMA benefit remained in the United States. The employee had not included the
eligible family members on the travel order to the mission. However, a year later on
August 2, 2005, the employee’s family members moved to Egypt, at which time the SMA
benefit payments should have been terminated. USAID/Egypt’s Office of Financial
Management continued to make payments for an additional 29 days (until August 31,
2005). Consequently, USAID/Egypt overpaid the employee $1,049 after the end of the
benefit period.

Although human resources staff maintained documentation about the employee’s SMA
benefits, staff from USAID/Egypt’s offices of Human Resources and Financial
Management relied on the employee to notify the authorizing office of any change in
conditions that might affect the benefits granted. Mission officials stated that it was the
responsibility of the employee to notify them of any changes in condition. However,
although our audit work did not identify any regulations requiring the offices of Human
Resources and Financial Management to follow up on the status of eligibility until the
employee notifies either office of any change in condition, the mission offices should
continually perform due diligence to verify continued eligibility.

On September 3, 2009, USAID/Egypt’s Office of Financial Management requested a
refund of $1,121 for unallowable SMA payments from the employee, after the audit
identified $1,049 in unallowable payments. The employee agreed to refund the amount
of excess SMA benefits.

On September 10, 2009, USAID/Egypt’s Office of Financial Management developed a
monthly recertification form that the office plans to attach to SMA payment requests.
The form includes an agreement to notify the Office of Human Resources of any
changes to the status of eligible family members.

USAID/Jordan – From May 2005 to June 2009, the mission paid four employees SMA
benefits valued at $41,011. For confirmation of continued eligibility, USAID/Jordan’s
Office of Financial Management used a control measure. While human resources staff
relied on the employees to notify the office of any change in conditions that might impact
the SMA eligibility status, financial management officials either telephoned or e-mailed
staff to make this confirmation before the office made benefit payments. Although
confirming the continued eligibility by calling or e-mailing the employee is a sort of
management control, as a result of this audit, in August 2009, the mission’s executive
officer developed a recertification form for employees receiving SMA benefits to certify
monthly as a personal requirement for continued eligibility before USAID/Jordan
processes payments.

USAID/West Bank and Gaza – USAID/West Bank and Gaza continued to pay SMA
benefits for an employee’s dependent child even after the child turned 18 years of age in
November 2005. The employee’s SMA benefits for a spouse and dependent child began


                                                                                         8
in April 2005. However, from November 2005 to May 2006, the mission continued to
pay the employee benefits valued at $1,090. Neither the mission's Office of Human
Resources nor the employee receiving the benefit notified the mission’s Office of
Financial Management to reduce SMA payments when the dependent child reached age
18, resulting in unallowable payments for the child. Although the employee noted that
the eligible family member would turn age 18 on the original SMA grant application,
management reviews did not identify the child’s subsequent ineligibility.

The mission's human resources office staff did not require mission staff to terminate
SMA payments using the SMA grant form, as required by DSSR 077.3. Historically,
USAID/West Bank and Gaza’s human resources staff forwarded copies of employees’
SMA documentation to the mission’s Office of Financial Management for obligation of
funds, certification, and payment. USAID/West Bank and Gaza’s human resources staff
did not document or forward information to the financial management staff regarding
employees’ terminations of the benefit.

As a proactive measure during the audit, in August 2009 USAID/West Bank and Gaza’s
Deputy Controller developed a recertification form for staff to use on a monthly basis
when requesting SMA payments. USAID/West Bank and Gaza plans to use the
recertification form for multiple purposes to document the start of SMA benefits, changes
in election and conditions, and benefit termination. Moreover, the Deputy Controller
stated that the mission’s recertification form provides more internal control, which will
allow the mission flexibility to use it to document and verify eligibility of other employee
benefits, such as post differential, as additional funds paid to employees to offset costs
at post.

USAID missions in the Middle East Bureau pay employees thousands of dollars in SMA
benefits annually. Since the Agency relies on employees to provide information by
which to grant, process, and pay the benefit allowance, the missions should establish
management controls to safeguard Government assets against fraud, waste, or abuse.
This audit makes the following recommendations:

   Recommendation No. 2: We recommend that USAID/Egypt request that
   employees submit signed written statements to the Office of Financial
   Management to recertify continued eligibility for separate maintenance allowance
   benefits prior to processing payments.

   Recommendation No. 3: We recommend that USAID/Egypt determine the
   allowability of $1,049 paid in excess separate maintenance allowance benefits
   and issue a bill for collection for any amounts deemed unallowable.

   Recommendation No. 4: We recommend that USAID/Egypt document the use of
   the appropriate grant form to terminate separate maintenance allowance
   benefits, as required.

   Recommendation No. 5: We recommend that USAID/West Bank and Gaza
   determine the allowability of $1,090 paid in excess of separate maintenance
   allowance paid and issue a bill for collection for any amounts deemed
   unallowable.

   Recommendation No. 6:        We recommend that USAID/West Bank and Gaza


                                                                                          9
      document the use of the appropriate grant form to terminate separate
      maintenance allowance benefits, as required.

Mission Should Obtain
Appropriate USAID Approval

    Summary: ADS E477.5.3, Separate Maintenance Allowance, appears to require
    missions to obtain USAID/Washington’s Office of Human Resources approval of SMA
    requests for employees.      In addition, the Government Accountability Office’s
    Standards for Internal Control in the Federal Government state that transactions and
    other significant events should be authorized and executed only by persons acting
    within the scope of their authority.       In 2009, USAID/West Bank and Gaza
    inappropriately approved SMA benefits for one employee and paid unallowable SMA
    benefits valued at $1,525. This occurred because USAID/West Bank and Gaza did
    not seek proper approval from the authorities designated by the Agency. If
    appropriate approvals are not obtained, it is not certain that mission officials perform
    due diligence to safeguard Agency resources.


ADS E477.5.3, Separate Maintenance Allowance, appears to require USAID missions to
obtain USAID/Washington’s Office of Human Resources approval of SMA requests for
employees, in that it requires “employees stationed overseas” to forward SMA requests
directly to “the appropriate bureau with an information copy of the action taken on SMA
requests.” USAID authors wrote this particular sentence in passive voice without
explicitly naming the office that is required to complete the action of approving the SMA
requests. Nevertheless, we interpret ADS E477.5.3, together with the ADS glossary
definition of “employee” as “all USAID U.S citizen direct-hire personnel and personal
service contractors,” to mean that USAID/Washington’s Office of Human Resources is
the only office authorized to approve SMA benefits. Further guidance regarding SMA
benefits for U.S. personal service contract employees is set forth in USAID Acquisition
Regulation, Appendix D 5 .

As previously discussed, DSSR 264.2.b, Voluntary Separate Maintenance Allowance
(VSMA) – Based on Special Needs or Hardship of the Employee, requires an employee
to elect to have an eligible family member either included on the employee’s travel
orders or not placed on the travel orders and instead be placed on VSMA at the time of
assignment. After this initial election, the employee may request that VSMA either
commence or terminate, depending on the initial election, only once for each member of
family during a tour. However, unless specified exceptions apply, this change cannot
occur during the employee's first or last 90 days at post.

Further, the Government Accountability Office (GAO) Standards for Internal Control in
the Federal Government state that transactions and other significant events should be
authorized and executed only by persons acting within the scope of their authority. This
is the principal means of ensuring that transactions to exchange, transfer, use, or
commit resources and other events are valid.


5
    See http://www.usaid.gov/policy/ads/300/aidar.pdf.


                                                                                          10
Moreover, USAID Acquisition Regulation, Appendix D, Section 1.b.1 and 12.6.a state
that personal services contractors are Government employees and are treated on par
with other Government employees who may receive benefits such as SMA, which are
granted by the DSSR on the same basis as they are granted to U.S. direct-hire
employees at the mission.

USAID/West Bank and Gaza – Because we interpret ADS E477.5.3 as meaning that
USAID/Washington’s Office of Human Resources is the only office authorized to
approve SMA benefits, we conclude that the USAID/West Bank and Gaza Office of
Human Resources Executive Officer inappropriately approved SMA benefits for an
employee whose family departed the mission in May 2009. In a second case, the
mission’s Office of Human Resources approved SMA benefits for a U.S. personal
services contractor. As explained above, because the ADS glossary definition of
“employee” includes personal service contract employees as well as direct-hire
employees, it appears that under ADS E477.5.3, USAID/Washington’s Office of Human
Resources should have approved the SMA benefits for the personal service contract
employee, instead of the mission’s Office of Human Resources.

In one case, USAID/West Bank and Gaza’s Office of Human Resources Executive
Officer inappropriately approved SMA benefits for an employee whose family departed
the mission in May 2009. The employee’s family members (a spouse and child) left the
mission for Washington, DC, in May 2009, about 75 days before the employee
transferred to the United States in July 2009. Although the employee had not requested
the SMA benefit during the majority of the tour at the mission, the employee's request for
SMA effected a change of election, which was not allowed according to the regulations.
Moreover, as required by USAID guidance, USAID/Washington’s Office of Human
Resources is the only office authorized to approve SMA benefits. Consequently, the
executive officer inappropriately approved the benefits and forwarded the application for
processing to the mission’s Office of Financial Management. The Office of Financial
Management, in turn, paid unallowable SMA benefits valued at $1,525 to the employee
from May 2009. 6

According to the executive officer, the mission approved the employee’s request for
SMA benefits after determining that it would be cheaper to pay the employee the SMA
benefit as a “family-friendly approach,” rather than having the mission pay approximately
$3,260 in travel benefits for two dependent children. However, in a September 30, 2009,
correspondence, the executive officer stated that the mission did not obtain
USAID/Washington’s approval owing to an oversight.

Although the executive officer was not authorized to make this determination to approve
SMA benefits at the mission, USAID/West Bank and Gaza’s Office of Financial
Management officials stated that the office relied on the human resources staff to
provide other staff with completed and appropriately approved SMA grant applications.

According to mission officials, during August 2009, USAID/West Bank and Gaza
requested that USAID/Washington’s Office of Human Resources Foreign Service
Personnel Division retroactively approve SMA benefits paid to an employee since May
2009. However, as of November 23, 2009, USAID/West Bank and Gaza had notified the

6
 The mission paid additional SMA benefits to this employee after June 2009; these payments are
outside the scope of this audit.


                                                                                           11
audit team that a retroactive approval had not yet been granted.

In the second case, USAID/West Bank and Gaza’s human resources staff approved
SMA benefits for a U.S. personal services contractor. As explained above, because the
ADS glossary definition of “employee” includes personal service contract employees as
well as direct-hire employees, it appears that under ADS E477.5.3, USAID/Washington’s
Office of Human Resources should have approved the SMA benefits for the personal
service contract employee, instead of the mission’s Office of Human Resources.

USAID/Washington’s Office of Human Resources Foreign Service Personnel Division
has approved employees’ requests for SMA benefits for U.S. direct-hire employees.
According to USAID/West Bank and Gaza human resources staff, the mission typically
approves SMA benefits for personal service contractors in accordance with USAID
acquisition regulations. As the responsible mission office, USAID/West Bank and
Gaza’s Office of Human Resources staff assists employees in preparing the grant
application and forwarding the documentation to the USAID/Washington division for
approval.

USAID/West Bank and Gaza did not forward its SMA requests to the appropriate
USAID/Washington Office of Human Resources for approval, as required. Instead, after
the executive officer received the grant application for processing and payment, the
officer routed the documents to USAID/West Bank and Gaza’s Office of Financial
Management to verify availability of funds. After the Office of Financial Management
verified that funds were available, the executive officer signed the forms that obligated
funds to pay SMA benefits.

USAID managers must follow established guidance to ensure that SMA grant applications
are appropriately authorized and approved before benefits are paid. If managers do not
seek appropriate approvals, it is not certain that mission officials perform due diligence to
safeguard Agency resources. Therefore, this audit makes the following recommendations:

   Recommendation No. 7: We recommend that USAID/West Bank and Gaza
   determine the allowability of $1,525 and other separate maintenance allowance
   benefits paid after June 2009 to the employee and issue a bill for collection for
   amounts deemed unallowable.

   Recommendation No. 8: We recommend that USAID/West Bank and Gaza
   document direction to the human resources’ staff to submit requests for separate
   maintenance allowance benefits for all employees to USAID/Washington’s Office
   of Human Resources for approval.




                                                                                          12
Missions Should Improve
Controls Over Documentation

 Summary: Department of State Standardized Regulations Chapter 260, Section 265,
 Commencement and Continuation of Grant, provides guidance on the determination
 of the start date for the SMA benefit. Additionally, the Government Accountability
 Office’s Standards for Internal Control in the Federal Government includes the control
 activity of appropriate documentation of transactions and internal control, for which
 transactions and significant events should be clearly documented with readily
 available documentation. The USAID/Egypt and USAID/West Bank and Gaza
 missions did not document the start and end dates for employees’ SMA benefits and
 did not share information with the Office of Financial Management on a regular or
 timely basis. Consequently, the financial management staff processed some of the
 benefit payments without having access to or reviewing the supporting
 documentation to discern the propriety of the payments. This occurred because
 missions’ financial management officials relied on the human resources staff to
 monitor and verify employee eligibility. As a first line of defense to safeguard
 USAID’s assets, missions should maintain accurate records of transactions and
 events to prevent and detect errors and fraud.

DSSR Chapter 260, Section 265, Commencement and Continuation of Grant, requires
mission officials to determine an employee’s SMA benefit start date based on the latest
of the (1) the submission date of grant application, (2) date that official travel began, or
(3) date of separation from eligible family members. In addition, ADS 596.3.1,
Establishing Internal Controls, requires USAID control activities to include the
appropriate documentation of transactions and internal control. Moreover, the GAO’s
Standards for Internal Control in the Federal Government includes the control activity of
appropriate documentation of transactions and internal control, for which transactions
and significant events should be clearly documented with readily available
documentation.

USAID/Egypt – Mission officials in USAID/Egypt’s offices of Human Resources and
Financial Management did not document the critical start and end dates for employees’
SMA benefits in employee files or attached to financial documents. USAID/Egypt’s
financial management officials stated the office relied on the later of the effective date on
the cable or dates on the grant application after receiving the human resources office’s
confirmation. However, human resources staff stated that the office referred to the
DSSR 260 to establish the start date to begin an employee’s SMA benefit. To
exacerbate this problem, the offices did not communicate or share information on the
start and end dates for the benefits on a regular and timely basis.

For example, one employee had a change in condition that should have terminated his
benefit payments. However, financial management staff did not document this critical
end date or attach supporting documentation with the last voucher. As a result, the
financial management staff continued to make benefit payments for an additional 29
days, resulting in the employee being overpaid approximately $1,049.

ADS 477, Allowances and Differentials, and DSSR 260, Separate Maintenance
Allowance, lack clear guidance on the required supporting documentation for SMA


                                                                                          13
benefits. However, as a prudent management practice, financial management staff
should communicate with human resources staff on a regular basis to obtain additional
information about an employee’s status. The financial management staff should retain
and include supporting documentation for continued eligibility decisions that are included
in the mission’s records retention system for management review.

On September 29, 2009, USAID/Egypt’s Office of Human Resources submitted a draft
checklist to document its review of SF-1190 applications. This checklist addresses the
documentation issues that were identified during the audit.

USAID/West Bank and Gaza – USAID/West Bank and Gaza’s financial management
staff relied on the human resources staff decisions and documentation with little
management oversight before the mission processed and paid SMA benefits to
employees. Consequently, the financial management staff processed some of the SMA
payments without reviewing the supporting documentation to discern the propriety of the
payments. In some cases, the financial management staff processed payments without
the benefit of supporting documents that included USAID/Washington SMA approval
cables and verification of continued eligibility. This occurred because the mission’s
financial management officials relied on the human resources staff to monitor and verify
employee eligibility.

In one example, USAID/West Bank and Gaza’s human resources staff forwarded
monthly payment request documents for an employee’s SMA to financial management
staff for processing and payment. In 8 of 11 monthly payment requests, the date on the
request was for the years 1908 and 1909 instead of the correct years, 2008 and 2009.
Despite the incorrect dates, financial management staff processed the requests and
made payments to the employee without requiring correction of the date errors.

In a second example at USAID/West Bank and Gaza, although not material, mission
financial management staff could not provide supporting documentation for the SMA
payment of $46 as a final payment to one employee for benefits due from November
2005. According to financial management officials during the audit, the mission payment
was not included in the official accounting records because mission staff paid the
employee benefits using petty cash funds as an alternative method of payment. The
incumbent deputy controller stated that the mission paid the employee’s monthly SMA
using petty cash because the employee had closed a personal bank account used for
the monthly deposit. Since this payment was not classified in the official accounting
system records as a SMA payment, it was difficult to reconcile the mission’s benefit
payments to employees for the period.

Although the mission payments were not material, the broad spectrum of examples
demonstrates the need for increased controls based on the limited sample reviewed. As
a first line of defense to safeguard USAID’s assets, management controls help to prevent
and detect errors and fraud. Relevant supporting documentation that is readily available
for management review serves as a strong management control to ensure that appropriate
and allowable SMA benefits are processed and paid to employees in a timely manner.
This documentation memorializes events that may affect the employee’s eligibility and
subsequent payment authorizations. Moreover, missions should record these payments in
the official accounting records to present accurate payment information to stakeholders.
Accordingly, this audit makes the following recommendations:



                                                                                       14
   Recommendation No. 9: We recommend that USAID/Egypt’s Offices of Human
   Resources and Financial Management establish internal controls that require
   documentation of separate maintenance allowance start and end dates.

   Recommendation No. 10: We recommend that USAID/West Bank and Gaza’s
   Office of Financial Management develop procedures to ensure that separate
   maintenance allowance payments are accurately recorded and adequately
   tracked in its official accounting systems records.

Missions Should Use
Updated Documents

 Summary: Department of State Standardized Regulations 077.1, Applying for
 Payment of Allowances and Difficult to Staff Incentive Differential on SF-1190, require
 the use of this form when an employee requests a separate maintenance allowance.
 The department updated the form in December 2006 and in July 2009 to include
 spousal and domestic partner signatures, respectively. However, with the exception
 of one updated application at USAID/Egypt, none of the other missions audited from
 the Middle East Bureau required employees receiving the benefit to use the updated
 form, because mission officials stated that they were not aware of the updated 2006
 or 2009 separate maintenance allowance grant application form. Consequently, an
 internal control designed to ensure that eligible family members were aware of
 benefits paid on their behalf was rendered ineffective to prevent fraud or abuse.


According to DSSR 077.1, Applying for Payment of Allowances and Difficult to Staff
Incentive Differential on SF-1190, the standard form 1190 grant application must be
used when an employee requests SMA. As supplemental guidance, the Department of
State issued an official cable (SECSTATE cable 118557) to notify posts about standard
operating procedures for obtaining the signatures of both an employee and an
employee’s spouse or domestic partner in the grant application.

The DSSR periodically updates the grant application for SMA benefits that some Federal
agencies are required to use when employees request SMA. The Department of State
updated the grant application in December 2006 and again in July 2009. In August
2007, the Department of State provided instructions to diplomatic and consular posts
using SECSTATE 118557 to notify its posts about the revised grant application. The
cable sent to USAID missions communicated information about the revised grant
application form and the importance of management controls to ensure that eligible
spouses were aware of and had access to SMA payments.

Although the Department of State updated its guidance in May 2008, USAID has not
updated its guidance since September 2002. As an internal control, the December 2006
application form made an important change from earlier versions of the grant application
by adding a signature block for an employee’s spouse. The revised July 2009 grant
application included a signature block for an employee’s domestic partner. However,
some of the USAID missions in the Middle East Bureau did not establish control
procedures to require employees to use the appropriate grant application that included


                                                                                      15
an eligible family member’s spouse or domestic partner signature, as required.

USAID/Egypt – Four of 12 employees at USAID/Egypt or its client missions did not use
the updated grant application form, although the mission processed SMA requests after
December 2006. Only one employee used the updated grant application, which the
executive officer approved without the required spouse’s signature. Mission officials
stated that they were not aware of the revised grant application that the Department of
State issued in December 2006 because USAID/Washington had not notified the staff of
the revision. Moreover, USAID/Washington did not update the grant application form on
the Agency’s Web site.

USAID/Jordan – The mission does not have current SMA grants. The four grant
applications reviewed were submitted prior to the issuance of the updated form in
December 2006.

USAID/West Bank and Gaza – USAID/West Bank and Gaza human resources staff did
not require staff to use the updated grant application form, although they requested SMA
benefits after December 2006. Although two of five employees at USAID/West Bank
and Gaza requested SMA benefits after the Department of State required the use of the
new grant application form, mission officials processed the applications and paid the
employees. Typically, USAID/West Bank and Gaza’s human resources staff made
copies of an employee’s original grant application and forwarded it and a payment
voucher to the mission’s financial management staff for processing and payment.

Consequently, mission staff stated that they were not aware of the requirements to use a
revised grant application form from either December 2006 or July 2009 that included a
signature block for spouses and domestic partners as eligible family members.

Officials at each of the missions have acknowledged notification about the updated form
and the new grant application requirements for eligible family members’ signatures on
the SMA applications from USAID/Washington on August 20, 2009. The updated form
includes a signature block for a spouse or domestic partner that is to be signed when the
employee is applying for SMA benefits. The notice recommended that USAID personnel
download the form from the Agency’s intranet site and submit completed grant
application to USAID/Washington’s Office of Human Resources for review and
appropriate action.

Requiring an employee’s spouse or domestic partner to certify, in writing, that he or she
qualifies to receive the SMA is an important internal control to help prevent the improper
use of the allowance. Since the intent of the requirement to include spouses’ or
domestic partners’ signatures on the grant application form was to make beneficiaries
aware of the SMA, without the required signatures, USAID officials cannot be assured
that eligible family members are knowledgeable about payments for the entitlement.
Moreover, since there is much guidance regarding the benefit, USAID should make
timely efforts to synthesize and publish the necessary information for staff. Accordingly,
this audit makes the following recommendations:

   Recommendation No. 11: We recommend that USAID/Egypt notify its staff about
   the required use of the updated separate maintenance allowance grant
   application and required appropriate signatures of eligible family members prior
   to processing applications and making payments.


                                                                                       16
Recommendation No. 12: We recommend that USAID/Jordan notify its staff
about the required use of the updated separate maintenance allowance grant
application and required appropriate signatures of eligible family members prior
to processing applications and making payments.

Recommendation No. 13: We recommend that USAID/West Bank and Gaza
notify its staff about the required use of the updated separate maintenance
allowance grant application and required appropriate signatures of eligible family
members prior to processing applications and making payments.




                                                                                     17
EVALUATION OF
MANAGEMENT COMMENTS
In their response to the draft report, USAID/Egypt, USAID/Jordan, and USAID/West
Bank and Gaza mission officials agreed with 12 of the 13 recommendations. As a result,
management decisions have been made for 12 recommendations. The three missions
took final actions on recommendations nos. 2, 3, 5, 6, 10, 11, 12, and 13. USAID/Egypt
agreed with three of the recommendations, but did not take the recommended actions
necessary to constitute final actions for recommendations nos. 1, 4, and 9. In addition,
USAID/Jordan did not take corrective action for recommendation no. 1. Finally,
USAID/West Bank and Gaza did not take final actions for recommendations nos. 7 and
8.

Recommendation no.1 required cooperation and coordination between the USAID/Egypt
and USAID/Jordan to determine the allowability of $3,706 in travel expenses paid for an
employee’s spouse who had received separate maintenance allowance (SMA) benefits.
In response to recommendation no. 1, USAID/Jordan agreed to work with and provide all
information needed to enable USAID/Egypt to determine the allowability of $3,706 and to
issue a Bill for Collection for amounts deemed unallowable. Although in an October
2009 e-mail USAID/Egypt’s controller agreed with the recommendation and
acknowledged that both missions recognize that the employee received benefits in
excess of the entitlement, USAID/Egypt’s controller now reports that USAID/Jordan
should recover excess travel payments and issue the Bill for Collection because
USAID/Jordan authorized the improper travel expenses.

Although USAID/Jordan improperly authorized travel expenses for employee’s spouse
by inappropriately adding the spouse—for whom SMA was payable—to the travel
authorization, USAID/Egypt paid the post assignment claim filed by the employee. In
this case, either mission could assume the responsibility for collecting any travel
expenses deemed unallowable. Since USAID/Egypt paid the travel expenses that
USAID/Jordan authorized, the recommendation does not imply exclusive culpability for
USAID/Egypt, since both mission controllers are accountable for the stewardship of
Government resources. As a result, the Regional Inspector General/ Cairo (RIG/Cairo)
considers that final action has not been taken on this recommendation.

To address recommendation no. 2, USAID/Egypt agreed with the recommendation to
develop a “SMA Certification Form.” The mission’s controller requested the Executive
Office and Financial Management to ensure that all employee requests for separate
maintenance allowance payments include a signed copy of the “SMA Certification.” In
addition, the form includes an agreement to notify the office of human resources of any
changes to the status of eligible family members.

In response to recommendation no. 3, USAID/Egypt agreed with the recommendation
and issued a Bill for Collection for unallowable SMA benefit costs valued at $1,121. The
employee paid the bill for collection in full by check #2458 dated December 14, 2009, for
$1,121.




                                                                                      18
In response to recommendation no. 4, USAID/Egypt did not agree with the
recommendation to use the grant form to terminate SMA benefits and did not agree with
the recommended action that would constitute final action. Mission officials stated that
they were not aware of the requirement to use the grant form to terminate the benefit
and believe that the newly developed SMA Certification form will provide adequate staff
documentation and certification to SMA eligibility before USAID/Egypt makes any
payments. On the contrary, inasmuch as the Department of State Regulations 264,
Application and Supporting Data, references DSSR section 077.3, Granting Allowances
and Difficult to Staff Incentive Differential on SF-1190, subsection 077.31, General,
which requires agencies to grant, revise, and terminate separate maintenance allowance
on SF-1190s, continued eligibility and termination are distinctly different. Consequently,
the mission should use the appropriate form to terminate employees’ SMA benefits, as
required.    RIG/Cairo considers that final action has not been taken for this
recommendation.

In response to recommendation no. 5, USAID/West Bank and Gaza agreed with the
recommendation and issued a Bill for Collection on December 18, 2009, to recover
questioned SMA amount of $1,090.

To address recommendation no. 6, USAID/West Bank and Gaza agreed with the
recommendation and issued a notice to staff emphasizing the use of the updated SF-
1190 for terminating SMA benefits on December 21, 2009.

In response to recommendation no. 7, USAID/West Bank and Gaza agreed with the
recommendation, but requested that USAID/Washington’s Office of Human Resources
(HR/Washington) retroactively approve the questioned costs for SMA benefits. The
mission stated that it will take the proper action to recover amounts deemed to be
unallowable based on HR/Washington’s decision. Consequently, RIG/Cairo considers
that final action has not been taken for this recommendation.

In response to recommendation no. 8, USAID/West Bank and Gaza agreed with the
recommendation and implemented updated procedures requiring its human resources
office to submit requests for SMA for U.S. direct hires to HR/Washington for approval.
The mission plans to continue to approve SMA benefits for U.S. personal services
contractor employees until USAID/Washington provides written clarification or revises
Automated Directives System 477, Allowances and Differentials, to include U.S.
personal services contractor employees stationed overseas. As a result, RIG/Cairo
does not consider a final action has been taken for this recommendation.

To address recommendation no. 9, although USAID/Egypt agreed in general with the
recommendation, it proposed a corrective action that does not specifically address the
requirement to definitively establish a management control to document the start dates
that can be easily reviewed by the offices of Human Resources and Financial
Management, as well as other viewers. While the use of SMA Certification may
document the SMA end dates, USAID/Egypt did not address how the mission would
document the start dates to mitigate the likelihood of overpayments that have occurred
in the past. Consequently, RIG/Cairo does not consider a final action has been taken for
this recommendation.

In response to recommendation no. 10, USAID/West Bank and Gaza agreed with the
recommendation. On December 21, 2009, the Controller’s Office issued a memorandum


                                                                                       19
to the financial management staff, to record and to track all financial transactions, including
those related to SMA payments, in the official accounting system records.

In response to recommendation no. 11, USAID/Egypt agreed with the recommendation,
and the controller provided to mission financial management staff a copy of the updated
grant application form that included the required the signature of eligible family
members. Moreover, the mission controller instructed financial management staff to
process SMA grant claims documented on the updated form only.

To address recommendation no. 12, USAID/Jordan agreed with the recommendation.
The mission implemented an operational procedure that includes verification and
approval from HR/Washington using the updated SMA grant application form with the
spouse’s signature. In addition, USAID/Jordan developed a flow chart to illustrate the
adapted SMA payment process and designed a monthly recertification form.

In response to recommendation no. 13, USAID/West Bank and Gaza agreed with the
recommendation and issued a notice to staff on December 21, 2009, promulgating the
use of the updated SF-1190 as a condition for receiving SMA benefits.




                                                                                            20
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo (RIG/Cairo) conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. The audit objective was to
determine whether selected missions in the Middle East Bureau have adopted the
appropriate internal controls to prevent improper use of the separate maintenance
allowance (SMA).

In planning and performing the audit, we assessed internal controls related to
management oversight, documentation and data verification, proper execution of
transactions, and timely recording of events. Specifically, the audit reviewed human
resources and financial data related to approving, certifying, and paying SMA benefits.

The audit reviewed supporting documentation to support 208 SMA payment transactions
valued at $160,904 made to 19 employees at USAID/Egypt and its client missions
(USAID/Yemen, USAID/Morocco, and USAID/Lebanon), USAID/Jordan, and
USAID/West Bank and Gaza from May 1, 2005, to June 30, 2009. We conducted the
audit at the missions from July 20 through October 15, 2009.

Methodology
To obtain an understanding of the guidance for SMA benefits for USAID employees, we
reviewed voluminous criteria that included the following:

      USAID Automated Directives System (ADS) Chapter 101, Agency Programs and
       Functions

      USAID’s ADS Chapter 477, Allowances and Differentials

      Department of State Standardized Regulations 260, Separate Maintenance
       Allowance as of May 11, 2008; updated on August 30, 2009, and November 22,
       2009

      Department of State Standardized Regulations, Section 077, Use of SF-1190,
       Foreign Allowances Application, Grant, and Report

      USAID Acquisition Regulation, Appendix D, 4(c), Withholding and Fringe Benefits

      3 FAM 3232, Separate Maintenance Allowance

      3 FAH-1 H-3232, Separate Maintenance Allowance.




                                                                                     21
To review management control standards, the audit reviewed ADS Chapter 596,
Management’s Responsibility for Internal Control; the U.S. Government Accountability
Office Standards for Internal Control in the Federal Government, dated November 1999;
and Office of Management and Budget Circular No. A-123, Management Accountability
and Control. Additional criteria reviewed are listed in appendix V.

To determine whether missions covered by this audit adopted appropriate internal
controls to prevent the improper use of SMA benefits, RIG/Cairo interviewed staff from
the offices of Human Resources and Financial Management at USAID/Egypt,
USAID/Jordan, and USAID/West Bank and Gaza.                 The audit team gained an
understanding of the procedures for approving, processing, and paying SMA benefits to
employees on behalf of eligible family members. In addition, we reviewed mission
procedures for obligating funds and processing benefit payments. We also coordinated
our work in discussions with RIG/Cairo investigators to discuss related issues.

To determine the adequacy of the internal controls that the missions used, we reviewed
the entire universe of 21 SMA applications and approval cables for SMA benefits,
monthly payment vouchers, and financial documents that provided an audit trail for the
missions’ transactions from May 1, 2005, through June 30, 2009.




                                                                                   22
                                                                             APPENDIX II




MANAGEMENT COMMENTS



                                                                      December 21, 2009


Memorandum

To:           Jacqueline Bell, Regional Inspector General/Cairo

From:         Jed Barton, Controller, USAID/Egypt /s/

Subject:      Audit of Internal Controls over the Separate Maintenance Allowance at
              Selected Missions in the Middle East Bureau (Audit Report No. 6-263-10-00x-
              P) dated November 30, 2009

Following is the Mission’s response to the audit report Recommendations Nos. 1, 2, 3, 4, 9
and 11 addressed to USAID/Egypt.

Recommendation No. 1:

We recommend that USAID/Egypt coordinate with USAID/Jordan to determine the allowability
of $3,706 paid to cover travel expenses for the employee’s spouse and issue a bill for
collection for amounts deemed unallowable.

Mission Response:

The documents received by USAID/Egypt Mission regarding subject employee’s travel
(Attachment 1) was the assignment cable state 120018 dated June 28, 2005, (Attachment
2) departure cable from Jordan, Amman 05359 and (Attachment 3) Travel Authorization
which authorized the travel of the spouse.




                                                                                       23
                                                                           APPENDIX II


In as much as all post assignment documents were in the standard format and did not
authorize anything unusual or out of the ordinary, USAID/Egypt Mission had no way of
knowing that the post assignment travel for the employee’s spouse was improperly
authorized. The post assignment claim filed by the employee was paid by USAID/Egypt
in accordance with the authorizing documents. Therefore USAID/Egypt, should not be
included in the recommendation as having or sharing responsibility for the improperly
authorized travel expenses for the employee spouse. Since the employee involved is no
longer stationed in Egypt, responsibility for issuance of Bill of Collection should
appropriately be assigned to USAID/Jordan and recommendation for USAID/Egypt
action should be removed from this report.

Based on the information provided above, no further USAID/Egypt should be
required.

Recommendation 2:

We recommend that USAID/Egypt request that employees submit signed written
statements to the Office of Financial Management to recertify continued eligibility for
separate maintenance allowance benefits prior to processing payments.

Mission Response:

In an email dated September 10, 2009, the Mission Controller requested the Executive
Office and Financial Management to ensure that all Separate Maintenance Allowance
(SMA) payment requests processed by Accounts Payable (AP) should be accompanied
by a copy of the attached “SMA Certification”, duly signed and presented by the SMA
claim recipient, (Attachment 4). The form includes an agreement to notify EXO/HR of
any changes to the status of eligible family members.

The audit report confirmed that the Mission has taken the corrective action mentioned
above by stating that USAID/Egypt’s Office of Financial Management developed a
monthly recertification form that the office plans to attach to SMA payment requests. The
report has also stated that the form includes an agreement to notify the Office of Human
Resources of any changes to the status of eligible family members.

In view of the above, the Mission requests closure of Recommendation 2 upon
final report issuance.

Recommendation 3:

We recommend that USAID/Egypt determine the allowability of $1,049 paid in
excess separate maintenance allowance benefits and issue a bill for collection for
any amounts deemed unallowable.

Mission Response:

The report confirmed that on September 3, 2009, USAID/Egypt’s Office of Financial
Management determined the allowability of the amount questioned by requesting a
refund of $1,121 for the unallowable SMA payments.

The report added that the employee agreed to refund the excess SMA benefits. A recent


                                                                                      24
                                                                                APPENDIX II


follow up was made during which the employee mentioned that the he will be sending
the amount due via check to USAID/Egypt. The Mission issued Bill for Collection No.
91811 dated 12/15/2009 for $ 1,121.10, (Attachment 5).

In view of the above, the Mission believes that a management decision has been
made regarding the $1,121. By issuance of the BFC, the Mission has implemented
the recommendation, thus, the Mission that requests closure of Recommendation
3 upon final report issuance.

Recommendation 4:

We recommend that USAID/Egypt document the use of the appropriate grant form to
terminate separate maintenance allowance benefits, as required.

Mission Response:

While the Mission acknowledges the need to validate eligibility for continued SMA
payments, we are not aware of any regulatory or policy requirement to use the grant
form to terminate SMA benefits. Please note that there is also no termination section on
the SF-1190. Under normal circumstances eligibility for SMA payment may not be
continuous due to events such as family visitation, even while the grant remains active.
The Mission believes that the “SMA Certification” form implemented in response to
recommendation 2 provides adequate assurance that eligibility conditions for SMA
payments will be met prior to payment. The DSSR specifically outlines the conditions
which terminate an SMA authorization. If the auditors believe that, in addition to those
events listed in the DSSR, a formal grant amendment needs to be issued to terminate
SMA then this should be a recommendation to all Foreign Affairs agencies rather than
one that is specific to USAID/Egypt.

In view of the above, the Mission does not believe that Recommendation 4 is
appropriately addressed to USAID/Egypt and therefore requests that this
recommendation be eliminated from the final report.

Recommendation 9:

We recommend that USAID/Egypt’s Offices of Human Resources and Financial
Management establish internal controls that require documentation of separate
maintenance allowance start and end dates.

Mission Response:

USAID/Egypt Mission notes that while SMA cannot start and funds cannot be obligated
prior to issuance of the SF 1190 grant form, grant eligibility frequently begins only after
one or more additional DSSR specified conditions are met. Likewise, a variety of events
can lead to suspension or termination of the grant. Mission does not believe that these
conditions can be adequately anticipated at the time of grant approval. Therefore, the
mission believes that payment eligibility is more appropriately controlled through the
evaluation and review of the grantee’s “SMA Certification” submissions.

The Mission will utilize the information provided in the certification to determine eligibility
for payment and to appropriately start and terminate the payment of SMA benefits in


                                                                                            25
                                                                            APPENDIX II


accordance with the latest of the dates listed in DSSR sections 265 and 266.

In view of the above, the Mission believes that final action has been made and
requests closure of Recommendation 9 upon final report issuance.

Recommendation 11:

We recommend that USAID/Egypt notify its staff about the required use of the updated
separate maintenance allowance grant application and required appropriate signatures
of eligible family members prior to processing applications and making payments.

Mission Response:

USAID/Egypt believes that the announcing and implementation of form updates is an
Agency responsibility, that therefore this recommendation should be appropriately
addressed to the Agency. An Agency General Notice announced the updated SF-1190
form on August 20, 2009, during the audit process (Attachment 6). However, the link
contained in the notice continued to bring up the old version of the SF-1190 until the end
of September 2009 when it was updated to reflect the revised grant form. Now that,
USAID/Egypt has been advised of the updated form, the Mission will not approve any
future SMA grant not submitted on the updated grant form. Additionally, a copy of the
revised form has been provided to all financial management personnel with
responsibilities involving SF 1190 grant instructing them to only process grant claims
supported by the updated form (Attachment 7).

Based on the information provided above, USAID/Egypt does not consider the
need to take further action.


Distribution:

USAID/A/DIR
EXO
OFM/AP




                                                                                       26
                                                                            APPENDIX II




MEMORANDUM


TO:           Jacqueline Bell, Regional Inspector General/Cairo

FROM:          Dana Mansuri, Acting Mission Director /s/

DATE:         December 15, 2009

SUBJECT:      Management comments on the Audit of Internal Controls over the
              Separate Maintenance Allowance at Selected Missions in the Middle East
              Bureau.
              (Draft report No. 6-263-10-00x-P dated November 30, 2009)



USAID/Jordan would like to thank the RIG/Cairo audit team for their efforts on this audit.
The hard work of the audit team has provided our Mission managers with a very useful
management tool that will strengthen our ability to manage and monitor our SMA.

The Mission has reviewed and is in agreement with both of the report’s
recommendations that relate to USAID/Jordan. The following represents Mission
Management’s comments and documents both actions already taken and actions
planned to be undertaken to fully address the recommendations contained in the report.
Please note that we are commenting on the recommendations that relate to
USAID/Jordan only.

Recommendation No. 1: We recommend that USAID/Egypt coordinate with
USAID/Jordan to determine the allowability of $3,706 paid to cover travel expenses for
the employee’s spouse and issue a bill for collection for amounts deemed unallowable.

Planned Actions:

USAID/Jordan will work with and provide all information needed to enable USAID/Egypt
to determine allowability of $3,706 and to issue a bill of collection for excess travel
expenses paid as a result of authorizing the SMA recipient travel from post to
Washington.




                                                                                       27
                                                                         APPENDIX II


Recommendation No. 12: We recommend that USAID/Jordan notify its staff about the
required use of the updated separate maintenance allowance grant application and
required appropriate signatures of eligible family members prior to processing
applications and making payments.

Planned Actions:

USAID/Jordan agrees to strengthen internal controls and has implemented an
operational procedure that includes verification and approval from HR/Washington using
the July 2009, SF-1190 form with the spouse’s signature. Strong communications
between the EXO and FMO offices and enhanced communications with other missions
as necessary will continue.

USAID/Jordan has notified its staff of the new SF-1190 form to be used and the required
signatures for all foreign allowances.

Please find attached a flowchart depicting USAID/Jordan’s recently adopted SMA
Payment Process and the monthly verification form, as well as a copy of the e-mail
notifying USAID/Jordan’s staff of the new SF-1190 form.




                                                                                    28
                                                                     APPENDIX II




MEMORANDUM


DATE:        December 30, 2009

TO:          Regional Inspector General/Cairo, Jacqueline Bell

FROM:        Mission Director, Howard J. Sumka /s/

THROUGH: Deputy Mission Director, Sherry F. Carlin /s/

SUBJECT:   Response to Draft Report for the Audit of Internal Controls over the
           Separate Maintenance Allowance at Selected Missions in the Middle East
           Bureau, Audit Report No. 6-263-10-00x-P, November 30, 2009
________________________________________________________________

We would like to thank RIG/Cairo for their hard work in helping the USAID/WBG
management identify and address weaknesses associated with the separate
maintenance allowance (SMA) approval and payment processes. Below please
find USAID/WBG’s responses to each of the six recommendations included in
the subject draft audit report.

Recommendation No. 5: We recommend that USAID/West Bank and Gaza
determine the allowability of $1,090 paid in excess of separate maintenance
allowance paid and issue a bill for collection for any amounts deemed
unallowable.

Mission Response to Recommendation No. 5:

USAID/WBG agrees with this recommendation and has determined that excess
payments resulting from an otherwise eligible child who became ineligible upon
reaching her 18th birthday should not be allowed. The Mission has contacted and
has received concurrence from the employee. Further, USAID/WBG has issued a
bill of collection on 12/18/2009 to recover the entire questioned amount of $1,090
(attachment A).

In view of the above determination and action taken to recover the questioned
unallowable amount, the Mission believes that a management decision has been
reached and proper actions taken in order to fully close Recommendation No. 5
upon final report issuance.




                                                                               29
                                                                    APPENDIX II


Recommendation No. 6: We recommend that USAID/West Bank and Gaza
document the use of the appropriate grant form to terminate separate
maintenance allowance benefits, as required.


Mission Response to Recommendation No. 6:

USAID/WBG agrees with the recommendation and has implemented updated
and formalized local procedures for approving; processing and terminating SMA
benefit requests. Accordingly, according to the updated procedures, the Mission
will require an accurately and properly completed SF 1190 to start, change, or
terminate SMA benefits (attachment B).

In addition, WBG/HR has issued a notice to staff on 12/21/2009 emphasizing the
use of the updated SF-1190 for terminating SMA benefits (attachment C).

In view of the above measures taken, the Mission believes that a management
decision has been reached and proper actions taken in order to fully close
Recommendation No. 6 upon final report issuance.

Recommendation No. 7: We recommend that USAID/West Bank and Gaza
determine the allowability of $1,525 and other separate maintenance allowance
benefits paid after June 2009 to the employee and issue a bill for collection for
amounts deemed unallowable.

Mission Response to Recommendation No. 7:

The Mission agrees with the recommendation and will determine the allowability
of $1,525 and other separate maintenance allowance benefits paid to the
employee after June 30, 2009, audit cutoff date. The Mission acknowledges that
USAID/Washington’s Office of Human Resources is the only office authorized to
approve SMA benefits for direct hire employees and the Mission has taken
measures by addressing other recommendations in this report to fully comply
with this requirement in the future. The Mission also acknowledges that after an
initial election, the employee may request that SMA benefits either commence or
terminate, depending on the initial election, only once for each member of family
during a tour. Further, barring exceptions in DSSR 262.3 this change cannot
occur during the employee's first or last 90 days at post. The questioned amount
of $1,525 is a result of USAID/WBG’s granting SMA benefits without receiving
proper approval during employee’s last 90 days at post.

During audit fieldwork, after RIG/C identified and questioned the above SMA
benefit payments, USAID/WBG took action and contacted USAID/Washington’s
Office of Human Resources for a retroactive decision which is still pending. Once
a decision is rendered, the Mission will take proper action to recover amounts
deemed to be unallowable if any.



                                                                              30
                                                                     APPENDIX II


In view of the above measures taken, the Mission believes that a management
decision has been reached to address this recommendation.

Recommendation No. 8: We recommend that USAID/West Bank and Gaza
document direction to the human resources’ staff to submit requests for separate
maintenance allowance benefits for all employees to USAID/Washington’s Office
of Human Resources for approval.

Mission Response to Recommendation No. 8:

USAID/WBG has implemented updated local procedures requiring WBG human
resources staff to submit requests for separate maintenance allowance benefits
for U.S. direct hires to USAID/Washington’s Office of Human Resources for
approval. The guidance specifies that USAID/WBG will not grant or pay SMA
benefits to U.S. direct hires until such written approval and authorization is
received (attachment B).

Furthermore, the procedures clarify that SMA benefits for U.S. PSC employees
will continue to be approved at post in accordance with the AIDAR until such time
as the Mission receives written clarification from USAID Washington or through
an update to the ADS as to whether USAID Washington M/HR approves SMA
benefits for U.S. PSCs. The Mission has requested and is waiting for further
clarification from USAID/Washington.

In view of the above measures taken, the Mission believes that a management
decision has been reached and proper actions taken in order to fully close
Recommendation No. 8 upon final report issuance.

Recommendation No. 10: We recommend that USAID/West Bank and Gaza’s
Office of Financial Management develop procedures to ensure that separate
maintenance allowance payments are accurately recorded and adequately
tracked in its official accounting systems records.

Mission Response to Recommendation No. 10:

The Mission agrees that separate maintenance allowance payments should be
accurately recorded and adequately tracked in the official accounting system
records. However, the $46 referenced in the report is an isolated case and the
transaction was included in the accounting system even though the payment was
paid through our petty cash. It is our policy to post all financial transactions
including petty cash transactions in the official accounting system. The reporting
error resulting from the exclusion of the $46 from the report provided to RIG/C
during audit field work appears to be due to reporting limitations of
Phoenix (limited search ability). In addition, the event took place in November
2005 and we currently do have both local procedures as well as the worldwide
Phoenix guidance in place as a guidance to record all financial transactions,



                                                                               31
                                                                     APPENDIX II


including those related to SMA payments. At this point in time, we do not feel
that adding another procedure will strengthen our internal controls related to
transaction recording or tracking. However, to emphasize the importance of
including all financial transactions in the official accounting system and
adequately tracking them, on 12/21/2009 the Controller’s Office issued a
memorandum to the FMO staff identifying our relevant local procedures
(attachment D).

In view of the measures taken to remind FMO staff of key procedures related to
recording and tracking financial transactions, the Mission believes that a
management decision has been reached and proper actions taken in order to
fully close Recommendation No. 10 upon final report issuance.

Recommendation No. 13: We recommend that USAID/West Bank and Gaza
notify its staff about the required use of the updated separate maintenance
allowance grant application and required appropriate signatures of eligible family
members prior to processing applications and making payments.

Mission Response to Recommendation No. 13:

USAID/WBG agrees with the recommendation and has implemented updated
and formalized local procedures requiring WBG human resources staff to verify
accuracy and completeness of an updated SF 1190 which includes the signature
of spouse or domestic partner prior to processing the application for SMA
benefits (attachment B).

In addition, WBG/HR has issued a notice to staff on 12/21/2009 promulgating the
use of the updated SF-1190 as a condition to receiving SMA benefits
(attachment C).

In view of the measures taken, the Mission believes that a management decision
has been reached and proper actions taken in order to fully close
Recommendation No. 13 upon final report issuance.

Attachments:
A: Bill of collection
B: Updated SMA policies and procedures
C: General staff notice for SMA policies and procedures
D: FMO staff notice emphasizing policies and procedures




                                                                               32
                                                                         APPENDIX III


                             Summary of Payments
                at Selected Missions for the Middle East Bureau
                                May 2005 to June 2009
                                                  Number of
           Number of Employees                                   Payment Amount
                                                  Payments
USAID/Egypt and Client Missions
Employee 1                                             33                $ 25,292
Employee 2                                             17                $ 12,241
Employee 3                                             08                 $ 6,351
Employee 4                                             04                 $ 4,448
Employee 5                                             05                 $ 3,199
Employee 6                                             01                   $ 713
Employee 7                                             02                   $ 695
Employee 8                                             00                      $0
Employee 9                                             00                      $0
Employee 10                                            12                $ 13,400
Employee 11                                            12                 $ 8,169
Employee 12                                             1                 $ 1,795
Total USAID/Egypt and Client Missions                  95                $ 76,303

USAID/Jordan
Employee 1                                             26                $ 20,321
Employee 2                                             13                 $ 9,942
Employee 3                                             11                 $ 9,344
Employee 4                                             02                 $ 1,404
                        1
Total USAID/Jordan                                     52                $ 41,011


USAID/West Bank and Gaza
Employee 1                                             28                $ 19,360
Employee 2                                             13                $ 10,760
Employee 3                                             11                 $ 7,663
Employee 4                                             07                 $ 4,282
Employee 5                                             02                 $ 1,525
Total USAID/West Bank and Gaza                         61                $ 43,590


Total Payments                                        208               $ 160,904

1
    Total for USAID/Egypt and client mission was rounded down.




                                                                                    33
                                                                             APPENDIX IV


                          Questioned Costs for
                Separate Maintenance Allowance Benefits
             at Selected Missions in the Middle East Bureau

      Date                 Mission                          Problem                  Cost
July 2005        USAID/Jordan and USAID/Egypt   USAID/Jordan approved and          $3,706
                                                USAID/Egypt paid unallowable
                                                travel expenses of $3,565 for
                                                a ticket and $141 for per diem
                                                for an employee's spouse to
                                                travel    from    Jordan     to
                                                Washington, DC, and then to
                                                Egypt for home leave travel
                                                and transfer to a new post.
                                                (See details on page 7 of
                                                report.)
November 2005    USAID/West Bank and Gaza       USAID/West Bank and Gaza           $1,090
                                                paid in unallowable SMA
                                                payments for an employee
                                                whose dependent child turned
                                                18 years of age. (See details
                                                on page 9 of report).
May 2009         USAID/West Bank and Gaza       USAID/West Bank and Gaza           $1,525
                                                approved      and     paid    in
                                                unallowable SMA payments
                                                for an employee whose family
                                                departed post for Washington,
                                                DC, about 75 days before the
                                                employee      transferred    to
                                                USAID/Washington.          (See
                                                details on pages 11–12 of
                                                report.)
August 2005      USAID/Egypt                    USAID/Egypt overpaid an            $1,049
                                                SMA      benefit   when      an
                                                employee’s eligible family
                                                members moved to the
                                                mission.     (See details on
                                                pages 8–9 of report.)
                                                TOTAL                              $7,370




                                                                                            34
                                                                     APPENDIX V


                    Federal Guidance on
          Separate Maintenance Allowance Benefits
   5 U.S.C. 5924, Cost-of-living allowances, subsection (3)

   3 FAM 3200, Allowances

   3 FAM 3215, Form SF-1190, Foreign Allowances Application, Grant, and Report
    (updated in December 2006 and July 2009)

   3 FAM 3232, Separate Maintenance Allowance

   3 FAH-1 3232, Separate Maintenance Allowance

   Department of State Standardized Regulations (DSSR) Chapter 260, Separate
    Maintenance Allowance, as of May 11, 2008; updated on August 30, 2009 and
    November 22, 2009.

   DSSR, Use of SF-1190, Foreign Allowances Application, Grant, and Report,
    Section 077

   DSSR, Granting Allowances and Difficult to Staff Incentive Differential on Form
    SF-1190, General, Subsection 077.31

   Department of State Cable (SECSTATE) 118577 to diplomatic and consular
    posts (dated 24 August 2007)

   USAID’s Automated Directives System (ADS), Chapter 477, dated 25 September
    2002, Allowances and Differentials

   USAID’s ADS, Chapter 101, dated October 2007, Agency Program and
    Functions

   USAID Acquisition Regulation Appendix D, 4c2v, Policy, Withholdings and Fringe
    Benefits

   USAID’s ADS, Chapter 502, dated September 2008, The USAID Records
    Management Program

   USAID’s ADS, Chapter 630, Payables Management




                                                                                35
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
